                                                                                                          I
                                                   NATIONAL SCIENCE FOUNDATION
                                                       4201 WILSON BOLILEVARD                             I

                                                      ARLINGTON, VIRGINIA 22230                           4




                       OFFICE OF
                   INSPECTOR GENERAL




               MEMORANDUM

               DATE:            September 20, 1996
- -   "'       -                                                                                  -.-     - ._         .~-_, - ~   --
               TO:              I94030016                                                             I


               FROM:           s       p   e   c   i   a   l Agent

               VIA:            -special                     Agent-in-Charge

               RE:              Closing of Case File

               O n March 17, 1994, our office received allegations from NSF employees that                        an
           1   insurance agent representing h-ad                           made several -unauthori-ited
               visits to their office in an effort to sell them additional life insurance policid.

               During our investigation, we determined that during unsolicited and unauthorized visits-
               sold insurance to NSF employees.                 would then, at a later d&e, deliberately change
                                                           -T
               employers, tell these same NSF employees t at his old employer had been purchased by his new
               employer (when in reality they had not), and ask that-the NSF employees sign over their accounts
               to the new employer. At one point, he even began forging these emplqyee's signatures on the




                                                       =
               forms authorizing the switching of accounts. In doing so,-was              obtaining sales bonuses for
               himself but also divesting these employees of their original life insurance policy investments.
                                                                                                  I


               While collecting information about                we found that the Statel of Virginia Bureau of
               Insurance had recently ruled that               olated several state administrative rules, fined him,
               and revoked his license. In addition, the U.S. Postal Inspection Service has an active
                                                                                            I NSF employees and
               investigation of
                                   h          ctivities. Consequently, we interviewed several
               met with both t e cognizant State of Virginia Bureau of Insurance investigator and U.S. Postal
               Inspector. After analyzing documentary evidence with these agents, we determined that, though
               NSF employees were victims o f f i - a u d u l e n t activities, the agency suffered no loss and its
               operations were not affected in any way, We are continuing to assist the U.S. Postal Inspector in
               their case but, since another federal agency has taken the lead in this matter, an open NSF-OIG
                                                                                          I
               case file is not warranted at this time.

               This case is closed.
